IG Remarks San Juan Capistrano CA 04 AUG 1999
Home < Reports < Other   Legal Services Corporation Office of Inspector General
Remarks of Edouard Quatrevaux, LSC Inspector General, at the San Juan Capistrano Regional Library,
on the launching of I-LAW, the internet-based, kiosk-delivered legal information, self-help assistance,
and, for LSC client-eligibles only, a videoconference with an attorney or paralegal.
Other formats: Word97 25K | PDF 9K
San Juan Capistrano, California, August 4, 1999
It's a great honor and pleasure to speak today at this historic moment for LSC (the Legal Services Corporation).
I don't speak for LSC, but rather for my office, which by statute is independent and charged with two missions.
The first is to prevent and detect fraud, waste, and abuse-- that's not why I'm here.
The other mission is to promote efficiency and effectiveness in the delivery of legal services to the poor--
I'm here because information technology offers almost limitless increases in both efficiency and effectiveness
in almost all activities.  And the delivery of legal services is no exception.
Three years ago today, my office issued a report entitled
"Increasing Legal Services Delivery Capacity Through Information Technology."
The principal problem facing LSC is how to serve the estimated 80% not now served-- within existing resources.
The report projected that it was possible to quintuple current services.  It recommended the establishment of
telephone helplines and it recommended the delivery of legal services via the internet and the use of kiosks to reach
out into the community.
Some LSC grantees have since started helplines, and some have started to deliver legal services via a website.
But I-LAW is the first to begin to exploit the opportunity to reach out into their community via kiosks.
Over the course of the next year, the OIG will evaluate the effects of this project in the delivery of legal services.
I think this project should be seen in the context of the Information Revolution.
Wonderful things are becoming reality.  You may have read that a solo sailor, lost in the south Atlantic,
performed surgery on a life-threatening abscess under the guidance  of a doctor in the US-- via email.
Telemedicine is bringing expert knowledge  to small rural communities where it's never been available before.
And someday kiosks will bring legal services to these same communities.
E-commerce has the potential to restructure much of our economy.
In the past, manufacturers delivered their goods in large quantities, often by rail, to regional distribution
centers, which would then deliver those goods to retail outlets, where an inventory of a variety of goods would be
maintained, and, it was hoped, eventually sold.  But the reality is that not all goods were sold, and the unsold
inventory was shipped elsewhere at additional cost or sold at a loss.
More and more, goods are being sold directly by the manufacturer to the retail consumer.  There are several
major effects.  Companies like UPS and FedEx deliver parcels that formally rode the rails.  The middlemen
represented by the distribution centers and retail outlets can be eliminated and the savings can be passed on
to consumers.  Just as significant, inventories and their costs can be eliminated and the savings passed on to
consumers.  These effects result from a precise match between what is demanded and what is supplied, and the enabler
is information.  One of the critical assumptions underlying the principles of market economics is that there exists
perfect information, that buyers and sellers are all-knowing.  We're getting closer.
All of these advances are made possible by the growth of the power of the microchip, and the forecast for chip
power is that it will continue to increase at geometric rates.  What we have seen thus far is not the tip of the
iceberg, but more like a microbe on the tip of the iceberg.
Democracy, in a nation of laws, requires equal access to the justice system.  Without that access, the promise
of democracy goes unfilled.  Our lives and activities are increasingly interrelated, and from that naturally arise
conflicts.  A nation of laws resolves conflicts in the courts, and, absent the access to the courts, conflicts are
resolved in the streets.  We must not deprive people of the information they need to access the system of justice.
As Thomas Jefferson said, "Information is the currency of democracy."
In December 1996, Serbian authorities jammed the signal of Radio B92 because of the dissenting views it broadcast.
Information is the enemy of totalitarianism.  B92 switched to the Internet and its message was picked up and
relayed by Radio Free Europe and other groups.  B92 could not be jammed, and governments are beginning to realize
that the internet cannot be taxed or regulated or jammed.
There are many lessons coming from the experiences of governments in making info tech work for them.
One of those is that success increasingly depends on working collaboratively with other governmental units,
non-profits, and commercial firms.  The undertaking we celebrate today features the participation of the San Juan
Capistrano Regional Library, the Office of the Family Law Facilitator, the Women's Transitional Living Center and
the courts.  Another lesson is that success requires leadership, and I salute all of those involved in this effort
for demonstrating that leadership, that determination to succeed.
I want to make special mention of the role of the public libraries.  Not too many years ago, public libraries
in the US fell on hard times.  Budgets were cut, staff let go, and operating hours reduced severely.  Today,
libraries have embraced information technology and become, once again, the source of information and knowledge for
those without the private resources to acquire it.  Today, with I-LAW, the public library, working collaboratively
with legal services lawyers, the Family Law Facilitator's Office, and the courts, will deliver the currency of
democracy to the people.  I can think of no greater service.  Thank you.
URL: http://www.oig.lsc.gov/tech/eq990804.htm